Audit of USAID/Guatemala’s Road and
       Bridge Repair Activities


        Audit Report No. 1-520-00-006-P
              September 27, 2000




          San Salvador, El Salvador
             U.S. A GENCY FOR
             INTERNATIONAL
              DEVELOPMENT

             RIG/San Salvador


             September 27, 2000


             MEMORANDUM

             FOR:               USAID/Guatemala Director, George Carner

             FROM:              RIG/A/San Salvador, Timothy E. Cox

             SUBJECT:           Audit of USAID/Guatemala’s Road and Bridge Repair
                                Activities (Report No. 1-520-00-006-P)

             This memorandum is our report on the subject audit. In finalizing the
             report, we considered your comments on the draft report. Your comments
             on the draft report are included in Appendix II.

             The report contains two recommendations for your action. Based on the
             information provided by the Mission, a management decision has been
             reached on both recommendations. A determination of final action for the
             recommendations will be made by the Office of Management Planning
             and Innovation (M/MPI/MIC) when planned corrective actions are
             complete.

             I appreciate the cooperation extended to my staff during the audit.



Background   Hurricane Mitch struck Guatemala in late 1998, causing tremendous damage
             to the agricultural sector, the primary source of livelihood for the majority of
             those affected. The Government of Guatemala and the United Nations
             estimate rehabilitation and reconstruction costs at $550 million. The damage
             to the roads and bridges infrastructure was great with 53 bridges damaged
             and 68 destroyed, as well as 90 affected stretches of road.




             Page 1 of 14                                    Audit Report No. 1-520-00-006-P
In May 1999, Congress passed the Emergency Supplemental Appropriations
Act, creating the Central America and the Caribbean Emergency Disaster
Recovery Fund, which contained a total of $621 million in reconstruction
assistance for countries hit by Hurricanes Mitch and Georges and for
earthquake damage in Colombia. Because of the extent of damage caused
by Hurricane Mitch, Guatemala received $28 million of the $621 million.

To combat the effects of Hurricane Mitch, USAID/Guatemala and the
Government of Guatemala signed a Special Objective Grant Agreement
(SOAG), dated July 22, 1999, to achieve the joint special objective “Rural
Economy Recovers from Mitch and is Less Vulnerable to Disasters.” Under
one of the three intermediate results for this objective, “Agricultural
Productivity Recovered on More Sustainable Basis,” USAID/Guatemala
included approximately $3 million for rural road repair in the Department of
Alta Verapaz and the Ixcán region of the Department of Quiché.
USAID/Guatemala is working through two implementing entities—the
Cooperative Housing Foundation (CHF) in Ixcán and the Asociación
Nacional del Café (ANACAFE) in Alta Verapaz.

Funding for the Roads and Bridges Activities is as follows:

 Organization   USAID Amount   Cost Sharing      Total          End Date
 CHF              $1,994,622   $635,000       $2,629,622   September 30, 2001
 ANACAFE           1,015,333          0        1,015,333   September 30, 2001
 Total            $3,009,955   $635,000       $3,644,955

USAID/Guatemala’s cooperative agreement with CHF provides for the
construction of 13 vehicular bridges, repair of one vehicular bridge, and
rehabilitation of 100 kilometers of gravel roads in Ixcán in order to
guarantee the local population’s access to health care, education services
and markets.

The cooperative agreement with ANACAFE provides a total of
$3,738,286 under the SOAG; however, only $1,015,333 of this amount is
for road rehabilitation. The approved work plan for the project provides
for the maintenance and repair of 130 kilometers of roads in coffee
producing regions of the Alta Verapaz department in order to facilitate the
maintenance of coffee plantations and the transport of coffee harvests to
the market place. The remaining $2,722,953 of the cooperative agreement
provides funding for other activities, such as maintenance and renewal of
coffee plants and other crops, construction and renovation of coffee
processing centers, construction of research and training centers for coffee
farmers, and establishment of a regional communications network.




Page 2 of 14                                   Audit Report No. 1-520-00-006-P
Audit Objectives As part of its fiscal year 2000 audit plan, the Regional Inspector
                    General/San Salvador performed an audit to answer the following
                    questions:

                    h       Are USAID/Guatemala’s road and bridge reconstruction activities on
                            schedule to achieve the planned outputs?

                    h       Has USAID/Guatemala implemented an adequate monitoring system
                            for its road and bridge repair activities?

                    The audit scope and methodology is presented in Appendix I.



Audit Findings      Are USAID/Guatemala’s road reconstruction activities
                    on schedule to achieve the planned outputs?
                    For the CHF construction projects, the activities are currently on schedule to
                    be completed by September 30, 2001 within the amount currently budgeted.
                    However, regarding ANACAFE, higher than expected reconstruction costs
                    and a lack of a firm action plan for financing the remaining road construction
                    indicate that planned outputs cannot be achieved within the current project
                    budget.

                    The accomplishments of both CHF and ANACAFE have been significant
                    during the first eight months of project implementation. CHF has sub-
                    contracted with the Asociación para el Mantenamiento Vial de Ixcán
                    (AMVI) to rehabilitate 100 kilometers of road on the Franja Transversal del
                    Norte highway and is on schedule to complete 50 kilometers of roads in the
                    first year of the project. In addition, CHF has completed construction on one
                    bridge and is on schedule to complete five bridges during the first year of the
                    agreement. All 15 planned bridge projects are scheduled to be completed by
                    June 2001.

                    For ANACAFE, sub-contracts have been signed for 60.7 kilometers of road
                    rehabilitation—just under half of the 130 kilometers in the original
                    ANACAFE proposal. Fifty-three kilometers is planned to be completed in
                    the first year of the agreement. However, to date, ANACAFE has not
                    developed a firm plan of action to complete the remaining 69.3 kilometers of
                    road rehabilitation work as discussed in more detail below.




                    Page 3 of 14                                    Audit Report No. 1-520-00-006-P
Reconstruction Costs Significantly Higher Than Original
Estimates

ANACAFE’s original proposal to USAID/Guatemala listed 15 road
construction projects totaling 130 kilometers at a total cost of $1,015,333,
which is the entire amount budgeted for the road construction activities.
However, since $406,133 of the amount budgeted was for the purchase of
road construction machinery, only $609,200 was available for contracting
with road construction firms for the rehabilitation of roads. During the
negotiation of the cooperative agreement, ANACAFE, in supplemental
information to its original proposal, clarified its intention to contract for the
rehabilitation of 130 kilometers of roads for $609,200—an average cost of
$4,686 per kilometer.

However, to date, ANACAFE has contracted for the construction of 60.7
kilometers at a cost of $567,555, which, at $9,350 per kilometer, is twice the
originally proposed cost. Currently, only $139,662 of the original
$1,015,333 budget is available for further construction efforts, which would
require building the remaining 69.3 kilometers at a price of $2,015 per
kilometer—about 22 percent of the cost per kilometer of the road
rehabilitation contracts that have been signed to date. This information is
summarized in the chart below:


               ANACAFE ROAD REHABILITATION ACTIVITY
                     Per Kilometer Cost Analysis



                                       $4,686
                                                                         $9,350
                     $2,015


  $0             $2,000       $4,000        $6,000        $8,000         $10,000

          Originally estimated cost per kilometer

          Actual cost per kilometer of roads already contracted

          Required cost per kilometer to complete remaining
          roads within budget


ANACAFE officials mentioned several factors that contributed to the higher
than anticipated costs. One factor cited was the lack of adequate information
on the cost of building roads of the type being built. ANACAFE had no


Page 4 of 14                                     Audit Report No. 1-520-00-006-P
previous experience in building roads or contracting for the construction of
roads. At the time of the preparation of the proposal, the project’s civil
engineer had not yet been hired and ANACAFE did not have the technical
expertise to make accurate estimates. In order to estimate the costs, in
August 1999 ANACAFE requested local construction firms to provide
general estimates for the cost of the construction of gravel roads. However,
in May 2000, when the construction firms bid on the specific roads being
built under this project, prices were higher due to the mountainous terrain of
the area and the need for additional drainage on the roads which was not
originally anticipated. Officials also cited a significant increase in fuel costs
during the period of the proposal and the time of signing the construction
contracts.

Although ANACAFE officials have reiterated their commitment to complete
the rehabilitation within the current budget by utilizing the project’s road
construction machinery and contributions from the local communities, they
have stated that they will not have an action plan until mid to late September
2000.     As a result of the above, we are making the following
recommendation:

        Recommendation No.            1:    We     recommend        that
        USAID/Guatemala:

        1.1     obtain a firm plan of action from the Asociación
                Nacional del Café for timely completion of the road
                rehabilitation program within current budgetary
                levels;

        1.2     review the plan to determine if the completion of the
                program is feasible; and

        1.3     if necessary, determine what adjustment s should be
                made to the project.


Has USAID/Guatemala implemented an adequate
monitoring system for its road and bridge repair
activities?
USAID/Guatemala monitored the road and bridge repair activities by
performing site visits to the construction areas, meeting with the
implementing entities to discuss project implementation, and approving
project work plans. However, we noted some areas in which the Mission
could have more closely monitored the project activities as described in
more detail below.



Page 5 of 14                                     Audit Report No. 1-520-00-006-P
More Stringent Review of Work Plans Needed

The Mission’s strategy in selecting both of the implementing entities for
the roads and bridges activities was to work with organizations with which
the Mission already had a working relationship and that had established
networks in the affected regions of the country. In the Alta Verapaz
department, ANACAFE had more than eight years of experience working
with farmers in the coffee producing regions of the department, improving
productivity and increasing farm incomes. However, the cost estimates
for road construction in the ANACAFE proposal were not realistic, and
actual costs were significantly higher than those originally proposed by
ANACAFE as described in the previous section of this report.

The Mission did not perform a detailed cost analysis of the proposed road
reconstruction costs to determine their reasonableness. A closer review of
the proposed costs would have revealed that the construction of 130
kilometers of roads was not feasible given the project’s road specifications
and the mountainous terrain in which the construction was to take place.

USAID/Guatemala Not Informed of Significant Changes in the
Status and Implementation of Project Work Plans

For the ANACAFE program, Mission officials did not indicate knowledge
of the significant shortfalls in the program’s funding. At the entrance
conference, we were informed that the construction program was on target
for completion and Mission officials stated that they were not aware of any
obstacles to the project completion. Mission officials provided us with
copies of the construction contracts signed by ANACAFE in May 2000.
Our analysis of these contracts determined that over 90 percent of the
amount budgeted for the construction contracts had been committed for less
than half of the kilometers of roads to be built, indicating that planned
program outputs may not be met. We also noted that, for two of the roads,
Mission officials were not aware that the routing of the roads had to be
changed due to local communities not allowing ANACAFE to widen roads
in areas where coffee plants and other crops had been planted on a portion of
the right-of-way.

In addition, under the CHF agreement, the original work plan included the
construction of twelve concrete bridges, one Bailey bridge, and the repair of
one Bailey bridge. However, CHF later decided not to build four of the
concrete bridges because they were not considered as critical as other sites.
In their place they identified five other sites where bridges will be built at
approximately the same cost. However, CHF did not inform the Mission of
these significant changes to the work plan. Mission officials stated that since
it was not a contract, but rather a cooperative agreement, they did not think
they needed to approve this type of change. However, the substantial


Page 6 of 14                                   Audit Report No. 1-520-00-006-P
                 involvement clause of the cooperative agreement includes a provision for
                 approval of the work plan. Thus, any significant change to such a plan
                 should also be submitted to USAID/Guatemala for approval.

                 As a result of the above, project outputs have been significantly changed
                 and, in the case of ANACAFE, could be significantly reduced. Based on the
                 price of the roads already contracted, funding would only be available for 76
                 of the 130 kilometers—or 58 percent—of the kilometers planned to be built.
                 Since ANACAFE signed the sub-contracts for construction in May 2000,
                 closer monitoring by the Mission would have allowed them to take more
                 prompt action to address the budgetary problems of the project. To date, no
                 action has been required from ANACAFE to produce a firm plan of action to
                 address these funding shortfalls. As a result of the above, we are making the
                 following recommendation:

                         Recommendation        No.    2:     We    recommend       that
                         USAID/Guatemala develop a more effective plan to (a)
                         closely monitor the progress of the roads and bridges
                         rehabilitation project in order to determine if planned results
                         are being achieved on schedule; and (b) take corrective
                         action to improve program performance in cases where they
                         are not being achieved.




Management       USAID/Guatemala expressed agreement with the findings and plans to
Comments and     implement the recommendations of our audit report. Based on the
Our Evaluation   Mission’s comments, management decisions have been reached for both
                 recommendations.




                 Page 7 of 14                                    Audit Report No. 1-520-00-006-P
                                                                                  Appendix I


Scope and     Scope
Methodology
              We audited USAID/Guatemala’s Road Reconstruction Activities in
              accordance with generally accepted government auditing standards. The
              audit was conducted at USAID/Guatemala from July 17, 2000 through
              August 4, 2000. Our audit included a site visit during the period July 24,
              2000 to July 28, 2000, to the construction areas in the Department of Alta
              Verapaz and Ixcán region of the Department of Quiché.

              The Road Reconstruction Activity had two categories of planned outputs to
              be completed by September 30, 2001: 230 kilometers of rehabilitated roads
              (130 kilometers rehabilitated by the Asociación Nacional del Café
              [ANACAFE] and 100 kilometers of the Franja Transversal del Norte highway
              rehabilitated by the Cooperative Housing Foundation [CHF]) and 14 new
              replacement bridges constructed and one Bailey bridge repaired also by CHF.
              Tables I through III in Appendix III contain a detailed listing of the bridges to
              be constructed by CHF and the rural roads to be rehabilitated by ANACAFE.
              Our review focused on whether the Road Reconstruction Activity was on
              schedule to achieve these planned outputs and whether USAID/Guatemala
              had implemented an adequate monitoring system for the activity.

              Methodology

              To answer the audit objectives, we interviewed responsible officials at
              USAID/Guatemala, as well as the two implementing entities—CHF and
              ANACAFE. In addition, we reviewed relevant documentation obtained from
              the three entities.

              To determine whether road reconstruction activities were on schedule to
              achieve planned outputs, we reviewed documentation at USAID/Guatemala
              which included project design documents and the strategic objective grant
              agreement and its annexes including the project’s activity description. These
              documents provided the project’s funding, listed the expected outputs and
              identified the project timeframe. For CHF and ANACAFE, we reviewed
              progress reports that included work plans and milestones for achieving the
              planned outputs. We reviewed contract information from ANACAFE and
              quarterly reports to obtain current reconstruction costs. We reviewed records
              of site visits made by USAID/Guatemala personnel to the reconstruction
              areas.

              In addition, we performed site visits to the construction areas to determine the
              extent of progress made to date on the construction activities. For CHF
              activities, we visited nine of the 15 sites for the construction and rehabilitation
              of bridges, including all five of the sites where construction had begun. Table
              I of Appendix III contains a listing of the bridges, indicating those visited by
              RIG/SS. In addition, we visited the Franja Tranversal del Norte highway


              Page 8 of 14                                     Audit Report No. 1-520-00-006-P
                                                                Appendix I

where CHF has initiated road rehabilitation activities. For ANACAFE, we
visited five of the eight stretches of rural roads in the Department of Alta
Verapaz for which construction had begun at the time of our audit. Table II
of Appendix III provides a listing of the roads for which construction
contracts have been signed, indicating those visited during our audit.

To determine whether USAID/Guatemala had implemented an adequate
monitoring system for the activity, we interviewed USAID/Guatemala project
officials to determine what monitoring mechanisms are in place. We also
obtained copies of status reports provided by CHF and ANACAFE and site
visit reports prepared by USAID/Guatemala personnel.




Page 9 of 14                                 Audit Report No. 1-520-00-006-P
                                 Appendix II




Page 10 of 14   Audit Report No. 1-520-00-006-P
                                 Appendix II




Page 11 of 14   Audit Report No. 1-520-00-006-P
                                 Appendix II




Page 12 of 14   Audit Report No. 1-520-00-006-P
                                                                                               Appendix III

                                          TABLE I
                   Cooperative Housing Foundation Bridge Construction Sites

   Site Name            Length          Start Date        Completion        Bridge Type          Site Visit
                       (Meters)                              Date
 Cantabal                 20            Feb. 2000          May 2001           Concrete              Yes
 Petrolero                20            Feb. 2000          Jul. 2000          Concrete              Yes
 Santo Tomas              20            Mar. 2000          Sep. 2000          Concrete              Yes
 Tzutuj                   20            Apr. 2000          Aug. 2000          Concrete              Yes
 Cux                      14            Jun. 2000          Sep. 2000          Concrete              Yes
 Los Olivos               10            Aug. 2000          Oct. 2000          Concrete              Yes
 KM 31.5                  10            Aug. 2000          Nov. 2000          Concrete              No
 KM 29.6                  14            Oct. 2000          Dec. 2000          Concrete              No
 KM 25.3                  10            Nov. 2000          Jan. 2001          Concrete              No
 KM 2.5                   10            Dec. 2000          Feb. 2001          Concrete              Yes
 Veracruz                 15            Jan. 2001          Mar. 2001          Concrete              Yes
 KM 10.7                  12            Jan. 2001          Apr. 2001          Concrete              Yes
 S. M. Dolores            45            Feb. 2001          May 2001            Bailey               No
 La Alegría               20            Mar. 2001          May 2001           Concrete              No
 Xalbal                   90            Apr. 2001          Jun. 2001           Bailey               Yes


                                             TABLE II
                                  Asociación Nacional del Café
                           Road Rehabilitation Work Already Contracted

 Road Name                                  Distance (KM)        Cost       Cost per Kilometer     Site Visit
 Tzapur a Sachichá                                8.0           $72,727           $9,091              No
 Chicoj a El Manantial                            2.5           $26,682          $10,673              No
 Papalhá a Coop. Camelias                         8.0           $41,818           $5,227              No
 Papalhá a Centro Cabañas                          .8            $8,465          $10,581              No
 Cabañas a Coop. Sto. Domingo                     5.3           $33,672           $6,353              Yes
 Actelá a La Tinta                               11.2           $49,546           $4,424              Yes
 Actelá a Las Nubes                               2.2           $17,555           $7,980              No
 Actelá a Quebradas                               2.7           $27,143          $10,053              No
 Sacsuhá a Coop. Sta. Ma. San Marcos              5.5           $38,435           $6,988              Yes
 Sepoc to Coop. Champerico                        5.0           $32,468           $6,492              No
 Champerico to Xalihá Chamil                      1.0           $13,850          $13,850              No
 Balanté to Sta. Ma. Rubeltzul                    3.0           $77,273          $25,757              Yes
 Tzalantún to Santo Domingo                       4.0          $103,246          $25,812              Yes
 Xalihá to El Palmar                              1.5           $24,675          $16,450              No
 Total                                           60.7*         $567,555           $9,350

 *In the original work plan, the estimated total distance of these roads was 77 kilometers.




Page 13 of 14                                                                  Audit Report No. 1-520-00-006-P
                                                                         Appendix III


                                 TABLE III
                       Asociación Nacional del Café
                  Road Rehabilitation Work not Contracted

                         Road Name             Distance (KM)
                Sebas to Semococh                     8
                Cooperative Semarac                   5
                Actelá to Coop. Sto. Domingo         10
                Pequixul to Chitoc                   30
                To be determined                     16.3
                Total                                69.3




Page 14 of 14                                            Audit Report No. 1-520-00-006-P
